   December 17, 2004




Information Technology
DoD FY 2004 Implementation of the
Federal Information Security
Management Act for Information
Technology Training and Awareness
(D-2005-025)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ASD (NII)/CIO         Assistant Secretary of Defense for Networks and Information
                         Integration/Chief Information Officer
DeCA                  Defense Commissary Agency
DCMA                  Defense Contract Management Agency
DISA                  Defense Information Systems Agency
FISMA                 Federal Information Security Management Act
FMFIA                 Federal Managers Financial Integrity Act
IA                    Information Assurance
IT                    Information Technology
NIST                  National Institute of Standards and Technology
OMB                   Office of Management and Budget
POA&M                 Plan of Action and Milestones
WHS                   Washington Headquarters Service
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                      December 17,2004

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                 AND READINESS
               ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS
                 AND INFORMATION INTEGRATIONICHIEF
                 INFORMATION OFFICER
SUBJECT: Report on DoD FY 2004 Implementation of the Federal Information Security
         Management Act for Information Technology Training and Awareness
         (Report No. D-2005-025)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
        DoD Directive 7650.3 requires that all issues be resolved promptly. All the
recommendations remain unresolved. Therefore, we request that the Assistant Secretary
of Defense for Networks and Information IntegratiodDoD Chief Information Officer and
the Under Secretary of Defense for Personnel and Readiness provide comments on this
final report by January 2 1,2005,
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audam@,dodia.osd.mil.
                              -                 Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed 1
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(STPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Kathryn M. Truex at (703) 604-8966 (DSN 664-8966) or Ms. Sarah Davis at (703)
604-9031 (DSN 664-9031). See Appendix D for the report distribution. The team
members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:




                                     Assistant Inspector General
                             for Acquisition and Technology Management
          Office of the Inspector General of the Department of Defense
Report No. D-2005-025                                                 December 17, 2004
   (Project No. D2004AL-0136)

         DoD FY 2004 Implementation of the Federal Information
               Security Management Act for Information
                  Technology Training and Awareness

                                Executive Summary

Who Should Read This Report and Why? The DoD Chief Information Officer, the
Under Secretary of Defense for Personnel and Readiness, the Director of the Defense
Information System Agency, and the Chief Information Officers of DoD Components
should read this report to obtain information about DoD implementation of the Federal
Information Security Management Act training requirements. This report discusses the
overall ability of DoD to report reliable training information required by the Federal
Information Security Management Act and the effectiveness of the process that three
DoD Components used to develop the required training information.

Background. This report is in response to Federal Information System Management Act
requirements. On December 17, 2002, the President signed the E-Government Act
of 2002 (Public Law 107-347) that included title III, section 301, “Federal Information
Security Management Act of 2002.” The Federal Information Security Management Act
provides a comprehensive framework for ensuring the effectiveness of information
security controls, management, and oversight required to protect Federal information and
information systems. The Federal Information Security Management Act directs each
agency to develop, document, and implement an agencywide information security
program and to report annually to the Director of the Office of the Management and
Budget, congressional committees, and the General Accountability Office on the
adequacy and effectiveness of its information security policies, procedures, and practices.
In addition, the Federal Information Security Management Act requires the Inspectors
General of each agency to perform an independent evaluation of the agency’s
information security programs and practices.

On August 23, 2004, the Office of Management and Budget issued Memorandum 04-25,
“FY 2004 Reporting Instructions for the Federal Information Security Management Act,”
which included a set of questions for each agency and its Inspector General to answer as
part of the Federal Information Security Management Act reporting process. Section G
asked how many agency employees received security awareness training in FY 2004 and
how many employees with significant information technology security responsibilities
received specialized training.

Results. The DoD Chief Information Officer did not ensure that training information
that the DoD Components reported in response to the Federal Information Security
Management Act data calls was accurate and supportable. In particular, the DoD Chief
Information Officer did not ensure that all DoD Components had appropriately defined
and identified employees with significant information technology security
responsibilities, developed training requirements for those information technology
security professionals, or established processes to identify and track training taken by
those individuals. This conclusion is specifically illustrated by the result of our review of
three DoD Components. As a result, the DoD response to the training portion of the
Office of Management and Budget FY 2004 reporting instructions for the Federal
Information Security Management Act may not accurately reflect DoD enterprisewide
compliance with the Federal Information Security Management Act requirements.
(finding A).

The DoD Chief Information Officer did not ensure that security awareness training
information that the DoD Components reported in response to the Federal Information
Security Management Act data calls was accurate and supportable. Specifically, the
Chief Information Officer did not ensure that the DoD Components had effective
processes in place to track and monitor completion of security awareness training
requirements. Although the Defense Commissary Agency and Washington Headquarters
Service had processes in place to ensure that new employees receive initial security
awareness training, the Washington Headquarters Service was the only agency of the
three reviewed that had a process to ensure that its network users were receiving the
required periodic training. This condition occurred because the DoD Chief Information
Officer had not established specific reporting mechanisms to monitor and oversee
compliance with DoD Instruction 8500.2, “Information Assurance,” by DoD
Components. As a result, security awareness training information that the DoD reported
in FY 2004 cannot be relied upon to accurately reflect DoD enterprisewide compliance
with Federal Information Security Management Act requirements, and network users that
have not received training could introduce security vulnerabilities into DoD networks
(finding B). See the Findings section of the report for the detailed recommendations.

Management Comments. The Director, Defense Information Assurance Program either
did not concur with the recommendations or stated that the recommendations were no
longer applicable because the recommended actions had been completed. Specifically,
the comments stated that employees with significant information technology security
responsibilities are defined in Appendix AP1 of the Draft Manual DoD 8570.1-M. The
comments also stated that US Code Title 10 assigns the Services specific responsibilities
for equipping, training, and providing the forces. Additionally, the comments stated that
the Assistant Secretary of Defense for Networks and Information Integration has been
working with the Under Secretary of Defense of Personnel and Readiness to develop
methodologies for DoD Components to identify information assurance positions and
manage and track employee training and certification requirements. See the Findings
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.

Audit Response. The Director, Defense Information Assurance Program comments
were nonresponsive to the recommendations. DoD Directive 8570.1 specifically requires
the Assistant Secretary for Networks and Information Integration/DoD Chief Information
Officer to develop and promulgate additional guidance relating to information assurance
training, certification, and workforce management requirements. The Directive also
states that personnel and manpower databases under Under Secretary of Defense for
Personnel and Readiness authority capture and report requirements for information
assurance training and certification. Additionally, the implementing manual for DoD
Directive 8570.1 has not yet been issued; until such a manual is issued and complied
with, the recommended actions will not be completed. Therefore, we request that the
Assistant Secretary for Networks and Information Integration/DoD Chief Information
Officer and the Under Secretary of Defense for Personnel and Readiness provide
additional comments by January 21, 2005.


                                             ii
Table of Contents

Executive Summary                                                               i

Background                                                                      1

Objectives                                                                      2

Findings
     A. Specialized Training for Employees with Significant Security
          Responsibilities for Information Technology                           3
     B. Security Awareness Training                                            16

Appendixes
     A. Scope and Methodology                                                  25
         Management Control Program Review                                     25
         Prior Coverage                                                        26
     B. National Institute of Standards and Technology Guidance for Security
          Awareness and Training                                               27
     C. DoD Requirements                                                       29
     D. Report Distribution                                                    32

Management Comments
     Defense Information Assurance Program                                     35
Background
    Federal Information Security Management Act of 2002. On December 17,
    2002, the President signed the E-Government Act of 2002 (Public Law 107-347)
    that included title III, section 301, “Federal Information Security Management
    Act of 2002.” The Federal Information Security Management Act (FISMA)
    provides a comprehensive framework for ensuring the effectiveness of
    information security controls, management, and oversight required to protect
    Federal information and information systems. FISMA directs each agency to
    develop, document, and implement an agencywide information security program
    and to report annually to the Director of the Office of the Management and
    Budget (OMB), congressional committees, and the General Accountability Office
    on the adequacy and effectiveness of its information security policies, procedures,
    and practices. In addition, FISMA requires Inspectors General to perform an
    independent evaluation of the information security programs and practices of their
    agencies.

    OMB Guidance and Reporting Instructions. OMB identified security training
    and awareness as one of six Governmentwide security weaknesses in its FY 2001
    FISMA report to Congress and since then has required Federal agencies to report
    on security awareness and specialized training every year. On August 23, 2004,
    OMB issued Memorandum 04-25, “FY 2004 Reporting Instructions for the
    Federal Information Security Management Act,” which included a set of
    questions that each agency and its Inspector General must answer as part of the
    FISMA reporting process. Section G asked how many agency employees
    received security awareness training in FY 2004 and how many employees with
    significant information technology (IT) security responsibilities received
    specialized training.

    Evolution of Federal Training Requirements. FISMA requires security
    awareness training for all IT users and additional training for personnel with
    significant IT security responsibilities. A requirement for periodic training in
    computer security awareness has existed since the enactment of the Computer
    Security Act of 1987. The Computer Security Act also assigned the responsibility
    for developing standards and guidelines for Federal computer security training to
    the National Institute of Standards and Technology (NIST). In November 1989,
    NIST issued Special Publication 500-172, “Computer Security Training
    Guidelines,” which provided a framework for determining the training needs of
    particular categories of employees. In January 1992, the Office of Personnel and
    Management issued a Federal Personnel regulation, “Employees Responsible for
    the Management or Use of Federal Computer Systems” which made the
    recommended NIST guidelines mandatory. In April 1998, NIST issued Special
    Publication 800-16, “Information Technology Security Training Requirements: A
    Role- and Performance-Based Model,” which focused on the job functions, roles,
    and responsibilities of each individual, rather than on job titles. The new
    approach recognized that an individual may have more than one role in an
    organization and would need IT security training to satisfy the specific
    responsibilities of each role. In October 2003, NIST issued Special
    Publication 800-50, “Building an Information Technology Security Awareness
    and Training Program,” as a companion document to NIST 800-16. NIST 800-50
    discusses how to build an IT security awareness and training program, and

                                         1
    NIST 800-16 describes an approach to role-based IT security training. For more
    information on NIST 800-50 and 800-16, see Appendix B.


Objectives
    The overall audit objective was to assess DoD implementation of title III,
    section 301, “Federal Information Security Management Act,” of the
    E-Government Act of 2002 (Public Law 107-347). Specifically, we evaluated
    whether all agency employees, including contractors, received IT security training
    and awareness and whether employees with significant IT security responsibilities
    were properly trained for their level of responsibility. See Appendix A for a
    discussion of the scope and methodology and prior coverage related to the
    objectives.




                                        2
            A. Specialized Training for Employees
               with Significant Security
               Responsibilities for Information
               Technology
            The Assistant Secretary of Defense for Networks and Information
            Integration/DoD Chief Information Officer (DoD CIO) did not ensure that
            training information that the DoD Components reported in response to
            FISMA data calls was accurate and supportable. In particular, the DoD
            CIO did not ensure that all DoD Components had appropriately defined
            and identified employees with significant IT security responsibilities,
            developed training and certification requirements for those IT security
            professionals, or established processes to track and monitor training taken
            by those individuals. This conclusion is specifically illustrated by the
            result of our review of three DoD Components. This condition occurred
            because the DoD CIO did not implement the requirements of numerous
            policy documents issued since 1998 and did not establish specific
            reporting mechanisms to monitor and oversee accomplishment of those
            requirements by DoD Components. Further, DoD did not consistently
            report on actions required to correct this ongoing enterprisewide
            deficiency. As a result, the DoD response to the training portion of the
            OMB FY 2004 reporting instructions for FISMA may not accurately
            reflect DoD enterprisewide compliance with FISMA requirements.


NIST Special Publication 800-50
     OMB Memorandum 04-25, “FY 2004 Reporting Instructions for the Federal
     Information Security Management Act,” August 23, 2004, asks Federal agencies
     whether their employees with significant IT security responsibilities received
     specialized training as described in NIST Special Publications 800-50, “Building
     an Information Technology Security Awareness and Training Program,” October
     2003 and 800-16, “Information Technology Security Training Requirements:
     A Role- and Performance-Based Model,” April 1998. NIST 800-50 was more
     appropriate for our review of specialized training than NIST 800-16 because it
     focuses on a higher strategic level that better reflects the state of the DoD training
     program. According to NIST 800-50, agency Chief Information Officers should
     establish an overall strategy for the IT security awareness and training program;
     ensure that the agency head, senior managers, and others understand the concepts
     and strategies of the security awareness and training program and are informed of
     the progress of the program’s implementation; and ensure that effective tracking
     and reporting mechanisms are in place.

     NIST 800-50 describes the four phases of a training program: the program
     design, awareness and training material development, the program
     implementation, and postimplementation. The very first step in the design phase
     is determining the program structure. Organizations, such as DoD, that are
     relatively large, spread over a wide geographic area, and have organizational units


                                           3
    with separate and distinct missions often use a fully decentralized structure. In a
    fully decentralized program, a central authority, such as the DoD CIO, sets the
    overall training policy, and the operating units, such as the DoD Components,
    develop specific training plans and report the accomplishment of those plans to
    the central authority. In addition, NIST 800-50 endorses using a central database
    in the postimplementation phase. Agency CIO’s could use the information in the
    central database to inform the agency head and other senior management officials
    of the compliance of the IT security awareness and training program, and agency
    auditors could use it to monitor compliance with security directives and agency
    policy. For more information on NIST 800-50 and 800-16, see Appendix B.


Implementation of DoD Guidance
    DoD guidance since 1998 has acknowledged a need to identify personnel
    performing information assurance (IA) and IT duties, to develop training and
    certification requirements for those people, and to implement a process for
    tracking implementation of those requirements. A memorandum issued in June
    1998 required each DoD Component to develop a training and certification plan
    within 45 days, report to the DoD CIO on the implementation of that plan every
    quarter, and fully implement the plan by December 2000. In August 1999, an IA
    and IT human resources integrated process team issued a report on DoD training,
    certification, and personnel management. The report included recommendations
    to identify IT personnel, establish training and certification programs, and track
    implementation of those programs. A Deputy Secretary of Defense
    memorandum, issued in July 2000, endorsed the integrated process team
    recommendations, assigned recommendations to specific organizations requiring
    them to develop and submit implementation plans within 90 days, and required
    the DoD CIO to provide a consolidated status report on execution of those plans
    every 60 days.

    DoD Instruction 8500.2, “Information Assurance (IA) Implementation,” issued on
    February 6, 2003, did not fix the problems or implement the requirements of
    either the June 1998 memorandum or the July 2000 memorandum.
    Instruction 8500.2 reiterated the need for a DoD core curriculum for IA training
    and awareness and an IA skills certification standard. In addition, it required the
    DoD Components to follow the June 1998 and July 2000 memorandums, even
    though those memorandums outlined specific timelines for implementing
    corrective actions that should have been completed prior to issuance of DoD
    Instruction 8500.2. DoD Directive 8500.1, “Information Assurance,” issued on
    October 24, 2002, and certified current as of November 21, 2003, also required
    the DoD CIO to develop and promulgate additional IA policy and guidance on IA
    training and education.

    On August 15, 2004, DoD issued DoD Directive 8570.1, “Information Assurance
    Training, Certification and Workforce Management.” DoD Directive 8570.1
    outlined roles and responsibilities that are consistent with a fully decentralized
    organization as defined in NIST 800-50; however, similar requirements have
    existed in other policy documents for years and have yet to be implemented. DoD
    policies are described in more detail in Appendix C. Better metrics, timelines,
    reporting mechanisms, and oversight are needed to enforce all of the requirements

                                         4
    in DoD Directive 8570.1. An implementing manual for DoD Directive 8570.1 is
    being staffed and is expected to be released in April 2005. Until the
    implementing manual is issued and complied with, DoD needs to report its
    training deficiencies under the Federal Managers Financial Integrity Act
    (FMFIA), as discussed later in this finding.


Review of Selected DoD Component Training Programs
    Because DoD did not use an enterprisewide system, database, or process to
    identify employees performing significant IT security responsibilities and to track
    the specialized training taken by those employees, we selected 3 of the 21 DoD
    Components, the Defense Commissary Agency (DeCA), the Defense Contract
    Management Agency (DCMA), and the Washington Headquarters Service (WHS)
    that reported on specialized training for employees with significant IT security
    responsibilities in the DoD FY 2003 FISMA report for our review.

    Identification of Employees with Significant IT Security Responsibilities.
    One of the most significant findings in the IA and IT human resources integrated
    process team August 1999 report was that DoD was unable to expeditiously
    determine who was performing IT activities and who had access to the DoD
    information infrastructure. The integrated process team recommended that DoD
    identify all people who perform IT functions in DoD personnel databases so that
    their training can be tracked. On July 14, 2000, the Deputy Secretary of Defense
    endorsed the integrated process team recommendation and required the Under
    Secretary of Defense for Personnel and Readiness to submit an implementation
    plan within 90 days. In the FY 2002 Performance and Accountability Report
    mandated by the FMFIA of 1982, DoD reported that it would develop the
    capability to identify and track IA and IT personnel in the civilian databases by
    June 2003 and in the military databases by June 2004.

    The FY 2004 DoD FISMA reporting guidance issued by the DoD CIO on
    March 15, 2004, defined significant security responsibilities as those performed
    by Designated Approving Authorities, IA officers, IA managers, system
    administrators, computer emergency response team members, and anyone with
    privileged access to a system or network. As of May 2004, some DoD
    Components still were not using personnel databases to identify their employees
    with significant IT security responsibilities for FISMA reporting purposes.
    DeCA, DCMA, and WHS used data calls and the institutionalized knowledge of
    senior IT managers, rather than a personnel database, to identify their employees
    with significant IT security responsibilities. In addition, the number of IT
    employees that DCMA identified differed significantly from the number of
    employees that occupied IT-related positions in its personnel databases.

    In FY 2003, DCMA reported that it had 98 employees with significant IT security
    responsibilities. In April 2004, the East and West DCMA Field Service Division
    Chiefs and DCMA headquarters personnel identified 199 IT security




                                         5
           professionals. In June 2004, the DCMA civilian personnel database contained
           472 civilian employees who occupied traditional IT-related occupational series.1

           Training and Certification Requirements. In June 1998, the DoD CIO and the
           Under Secretary of Defense for Personnel and Readiness issued a memorandum
           that acknowledged a need for better training of employees with significant IT
           security responsibilities. That memorandum required DoD Components to
           develop and implement certification plans within 45 days, to report on progress
           against those plans every quarter, and to fully implement those plans by
           December 2000. In July 2000, the Deputy Secretary of Defense assigned the
           Under Secretary of Defense for Personnel and Readiness with the responsibility
           for establishing a requirement for DoD Components to develop mandatory
           training or certification programs. Additionally, DoD Instruction 8500.2, issued
           in February 2003, required DoD Components to follow the June 1998 and July
           2000 requirements. Although Component-level certification plans have been
           required since 1998, DoD did not develop mechanisms to ensure that DoD
           Components comply with these requirements. DeCA and DCMA did not have
           mandatory training or certification requirements for their employees with
           significant IT security responsibilities. WHS had specific training requirements
           for Designated Approving Authorities, IA officers, IA managers, and system
           administrators.

                   DeCA Requirements. DeCA was still developing a comprehensive
           training program with minimum training requirements for its employees with
           significant IT security responsibilities. Prior efforts to define training
           requirements either were not implemented or did not cover all IT security
           professionals. The DeCA “Information Assurance Training Plan for FYs 2001
           and 2002” provided training requirements for system administrators only and was
           never fully implemented. According to DeCA officials, because their IA office
           had limited resources, they decided to focus on improving the system certification
           and accreditation status. In FY 2002, DeCA developed a training program for its
           IA officers that included three required classes and a database to track completion
           of those requirements. DeCA plans to modify the classes required for the IA
           officers. DeCA has been developing an IA Training Handbook since 2003. The
           handbook is the agency’s best effort to date to develop and document training
           requirements for employees with significant IT security responsibilities; however,
           the handbook had not been completed and issued during our review of DeCA.

                   DCMA Requirements. DCMA did not have mandatory training and
           certification requirements for its employees with significant IT security
           responsibilities. Instead, DCMA used an IT Career Guide that provided
           information about the desired experience, education, and training goals for
           DCMA employees who perform IT as their primary function. The Career Guide
           has 3 career levels for the 10 specialty areas identified in the GS-2210 job series.
           Although the Career Guide provides a framework of recommended training for

1
    According to a study published in May 2004 by the Federal CIO Council’s Committee on Workforce and
    Human Capital for IT, there are five traditional IT-related occupational series. They are GS-2210
    Information Technology Management, GS-334 Computer Specialist (this series was canceled by the
    Office of Personnel and Management, but not all agencies have converted their Computer Specialists to
    other appropriate series), GS-391 Telecommunications, GS-1550 Computer Science, and GS-854
    Computer Engineering.


                                                     6
each specialty and career level, DCMA representatives were unable to explain
how the IT Career Guide is implemented. They could not describe processes for
approving and documenting achievement of each career level. In addition to the
IT Career Guide, DCMA was developing a certification program for systems
administrators, which will focus on commercial certifications such as Microsoft,
ORACLE, and CISCO.

        WHS Requirements. WHS had specific training requirements for
employees with significant IT security responsibilities that were primarily based
upon requirements listed in appendixes of the June 1998 memorandum and WHS
IA Bulletin 2001-002, “Organizational IA Training Resources,” April 10, 2001;
however, they were not formally documented. Designated Approving Authorities
and IA managers must complete the “DAA, Designated Approving Authority”
computer-based training provided by the Defense Information Security Agency.
Level I system administrators must complete five specific training courses, pass a
system administrator certification exam, and obtain supervisory validation of
competency for the Level I tasks included in Appendix A of the June 1998
memorandum. Level II system administrators must complete two additional
training courses and obtain supervisory validation of the Level II tasks. Level III
system administrators must have additional formal training, knowledge of
networking, fluency in one or more command languages, management or
supervisory experience, and the ability to manage the budget, design the security
architecture, and integrate security solutions. IA officers must take four of the
five training courses required for Level I system administrators.

Tracking and Monitoring. Although the July 2000 Deputy Secretary of Defense
memorandum specifically required the Under Secretary of Defense for Personnel
and Readiness to require DoD Components to develop a capability to readily
produce detailed answers about the status of certifications, only WHS had a
process in place to identify and track training taken by employees with significant
IT security responsibilities. DeCA and DCMA relied on data calls to provide
training records for some or all of their IT security professionals.

        DeCA Process. Prior to May 2004, DeCA did not have either a database
or a central location for maintaining its training records. DeCA used a data call to
provide training records in June 2004 for 128 employees with significant IT
security responsibilities and recorded the results in an Excel spreadsheet. DeCA
IT security professionals received very little training since 2001. According to
the information that DeCA gathered from those employees, only 31 of 128 had
taken IT-related training, other than the IA security awareness training, from
January 2001 through June 2004. Of those 31, only 1 had taken more than two
IT-related training courses.

        DCMA Process. Although DCMA used different automated programs or
databases for training, it did not have a central database of training and
certification records that could be used to track and monitor training for its
employees with significant IT security responsibilities. We requested training
records for a judgmental sample of 25 employees with significant IT security
responsibilities. DCMA forwarded our request to each of the individuals that we
selected. Those employees submitted their training information to the DCMA
training representative, who then consolidated the information and provided it to
us. DCMA provided training records for 13 of the 25 employees that we selected.

                                     7
    Only 5 of the 13 employees with significant IT security responsibilities that
    provided training records had taken any IT-related training courses, other than IA
    security awareness training, since January 2001. Of those five, only two had
    taken more than two IT-related training courses.

             WHS Process. WHS is implementing a software management tool to
    manage training for its employees with significant IT security responsibilities in
    two of its six Directorates. When demonstrated in May 2004, the program was
    capable of identifying the names of all employees in the two Directorates and
    displaying their individual training histories. The tracking and monitoring
    program will be extended to the other four Directorates, depending on its success
    in the first two directorates.

    Training records for the four Directorates that are not using the software
    management tool are maintained by each Directorate IT Manager. Employees
    with significant IT security responsibilities are responsible for providing their IT
    Manager with appropriate documentation on completed training, and IT Managers
    are responsible for ensuring that their designated security personnel complete the
    appropriate IA training. WHS provided training records for a judgmental sample
    of the 25 employees that we chose. Based on the documentation WHS provided
    for the judgmental sample, employees received the training required by WHS for
    their position responsibilities.


Deficiency Reporting and Tracking
    DoD has not consistently reported on training-related planned actions included in
    the FMFIA and FISMA reports. DoD reported two training-related corrective
    actions in the FY 2002 FMFIA report, but did not report on the progress in
    completing those actions in the FY 2003 FMFIA report. DoD also reported a
    training-related plan of action and milestones (POA&M) in its FY 2003 FISMA
    report, but the POA&M only addressed maintaining the currency of available
    training material and did not address specific weaknesses identified in the DoD
    FY 2002 FMFIA report or the August 1999 IA and IT human resources integrated
    process team report.

    Federal Managers Financial Integrity Act. The FMFIA of 1982 (section 3512,
    title 31, United States Code) requires an annual assessment of and report on
    management controls. Specifically, section 2 of the FMFIA requires the head of
    each executive agency to annually report to the President and Congress on
    material weaknesses in the agency’s controls and include a statement on whether
    there is reasonable assurance that the agency’s controls are achieving their
    intended objectives. A material weakness is a deficiency that the agency head
    determines to be significant enough to be reported outside the agency. The report
    on material weaknesses must include agency plans and progress in correcting the
    material weaknesses. In addition, FISMA requires each agency to address the
    adequacy and effectiveness of information policies, procedures, and practices as
    part of the FMFIA review and to report any related significant deficiencies as a
    material weakness in the FMFIA report.



                                         8
           OMB Circular A-123, “Management Accountability and Control,” June 21, 1995,
           provides implementing guidance for the FMFIA. It states that agency managers
           are responsible for taking timely and effective action to correct management
           control deficiencies and should be considered an agency priority. Plans should be
           developed to correct all material weaknesses, and progress against those plans
           should be periodically assessed and reported to agency management. A
           determination that a deficiency has been corrected should be made only when
           sufficient corrective actions have been taken and the desired results achieved.
           This determination should be in writing and available for review by appropriate
           officials.

           In FY 2002, DoD reported information assurance as one of eight systemic
           weaknesses2 and included two planned actions for specialized training of DoD
           employees performing significant IT security responsibilities. DoD stated that the
           DoD CIO would complete enterprisewide certification standards for IA and IT
           professionals by May 2003, and identify and track IA and IT civilian personnel in
           databases by June 2003 and in military personnel in databases by June 2004.
           DoD did not report on the progress of these actions in the FY 2003 FMFIA report
           signed on December 23, 2003, even though the DoD IA Strategic Plan released in
           January 2004 acknowledged a continuing need for completing certification
           standards and identifying IA and IT personnel in databases.

           Plan of Action and Milestones. The purpose of a POA&M is to assist agencies
           in identifying, assessing, prioritizing, and monitoring the progress in correcting
           security weaknesses found in programs and systems. OMB Memorandum 03-19
           required agencies to develop POA&Ms for all programs and systems where an IT
           security weakness was found. Agency progress in correcting weaknesses in the
           POA&Ms must be reported to the OMB Director as part of FISMA.

           In the FY 2003 FISMA report, DoD reported a POA&M for maintaining
           up-to-date training and stated that additional training material would be provided
           to DoD employees. The POA&M was incomplete because it did not address
           weaknesses and corrective actions discussed in either the FY 2002 FMFIA report
           or the 1999 IA and IT human resources integrated process team report. For
           example, it did not address either the DoD inability to identify and track
           employees with significant IT security responsibilities or the lack of training and
           certification requirements for those people. In addition, the POA&M did not
           provide estimated completion dates for the planned corrective actions. As a
           result, this weakness was closed in July 2004, even though serious IT training
           issues still exist.


FISMA Reporting
           DoD reported unsupportable training information to OMB and Congress in
           September 2003 because the DoD did not have a definitive means to identify
           employees with significant IT security responsibilities or an enterprisewide

2
    DoD defines systemic weakness as those management control deficiencies that may affect a significant
    number of DoD Components and also have an adverse impact on the overall operations of DoD.


                                                      9
    training standard and tracking mechanism. DeCA, DCMA, and WHS used data
    calls and the institutionalized knowledge of senior IT managers, rather than a
    personnel database, to identify their employees with significant IT security
    responsibilities. Therefore, the number of employees reported by DoD are subject
    to interpretation and change. For example, DeCA, DCMA, and WHS reported
    21, 98, and 34 employees with significant IT security responsibilities during the
    FY 2003 FISMA reporting process, but identified 128, 199, and 76 employees
    with significant IT security responsibilities during our review.

    In FY 2003, DoD reported that 7 of 21 DeCA employees with significant IT
    security responsibilities and 98 of 98 DCMA employees with significant IT
    security responsibilities received specialized training. However, neither DeCA
    nor DCMA could explain their criteria for determining whether their employees
    with significant IT security responsibilities had received adequate specialized
    training. Until DoD implements prior recommendations for developing minimum
    training and certification requirements and for identifying and tracking training of
    employees with significant IT security responsibilities, it will be unable to
    provide accurate and meaningful information on the training of those employees
    to OMB and Congress.


Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Assistant Secretary of Defense for Networks and
    Information Integration/DoD Chief Information Officer and the Under
    Secretary of Defense for Personnel and Readiness:

           1. Provide DoD Components with a standardized definition for
    employees with significant security responsibilities for information
    technology that require specialized training to use in meeting Federal
    Information Security Management Act requirements.

    Management Comments. Management does not concur. The Director, Defense
    Information Assurance Program commented that the recommendation is no longer
    applicable because it has been completed. Employees with significant
    information technology security responsibilities are defined in Appendix AP1 of
    the Draft Manual DoD 8570.1-Manual and the DoD Federal Information Security
    Management Act Reporting Guidance for FY 2004, 15 March 2004.

    Audit Response. The Director, Defense Information Assurance Program
    comments are nonresponsive. DoD Directive 8570.1, “Information Assurance
    Training, Certification, and Workforce Management,” August 15, 2004,
    established that it is DoD policy that privileged users and information assurance
    managers shall be fully qualified, trained, and certified to DoD baseline
    requirements to perform their information assurance duties. Personnel
    performing information assurance privileged user or management functions,
    regardless of job series or military specialty, shall be appropriately identified in
    the DoD Component personnel databases. All information assurance personnel
    shall be identified, tracked, and managed so that information assurance positions


                                         10
are staffed with personnel trained and certified by category, level, and function.
All positions involved in the performance of information assurance functions
shall be identified in appropriate manpower databases by category and level. The
status of the DoD Component information assurance certification and training
shall be monitored and reported as an element of mission readiness and as a
management review item as stated in DoD Instruction 8500.2. DoD Directive
8570.1 specifically requires the Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer to develop and
promulgate additional guidance relating to information assurance training,
certification, and workforce management requirements. Further, it directs that
personnel and manpower databases under Under Secretary of Defense for
Personnel and Readiness authority capture and report requirements for
information assurance training and certification. As indicated in finding A, DoD
guidance since 1998 has acknowledged a need to identify personnel performing
information assurance and information technology duties, to develop training and
certification requirements for those people, and to implement a process for
tracking implementation of those requirements. This need cannot be met without
defining the personnel to whom it pertains. An implementing manual for DoD
Directive 8570.1 has not yet been issued; until such a manual is issued and
complied with, this recommendation will not be completed. We request that both
the Assistant Secretary of Defense for Networks and Information Integration/DoD
Chief Information Officer and the Under Secretary of Defense for Personnel and
Readiness provide additional comments in response to the final report.

       2. Establish a specific reporting process for reviewing and approving:

             a. methodologies used by DoD Components to identify
employees with significant information technology security responsibilities,

              b. training and certification requirements developed by the
DoD Components for their employees with significant information
technology security responsibilities, and

              c. tracking processes that DoD Components use to determine
how many of their employees with significant security responsibilities for
information technology have received specialized training.

Management Comments. The Director, Defense Information Assurance
Program does not concur with this recommendation. US Code Title 10 assigns
the Services specific responsibilities for equipping, training, and providing the
forces. The Services review and provide oversight for their training programs.
The Office of the Secretary of Defense provides the framework for the
Components to address Recommendations a., b., and c. The Assistant Secretary
of Defense for Networks and Information Integration has been working with
Under Secretary of Defense of Personnel and Readiness to develop
methodologies for DoD Components to identify information assurance positions,
and manage and track employee training and certification requirements.

Audit Response. The Director, Defense Information Assurance Program
comments are nonresponsive. See the audit response to management comments
on Recommendation 1. In addition, DoD Directive 8570.1, “Information
Assurance Training, Certification, and Workforce Management,”

                                    11
August 15, 2004, directs that the Under Secretary of Defense of Personnel and
Readiness shall establish oversight for approval and coordination of certification
development and implementation, require that personnel and manpower databases
under the Under Secretary of Defense of Personnel and Readiness authority
capture and report requirements for information assurance training and
certification, and require the head of the DoD Components to determine
requirements for military and civilian manpower and contract support for
privileged users and information assurance managers. These actions have not
occurred. We request that both the Assistant Secretary of Defense for Networks
and Information Integration/DoD Chief Information Officer and the Under
Secretary of Defense of Personnel and Readiness provide additional comments in
response to the final report.

       3. Continue to report necessary corrective actions, including the
development of certification standards for employees with significant
information technology security responsibilities and the process for
identifying and tracking personnel who perform that function, to the
Secretary of Defense for inclusion in the DoD Federal Managers Financial
Integrity Act reports.

Management Comments. The Director, Defense Information Assurance
Program does not concur with this recommendation, based on his response to
Recommendations 1. and 2. The DoD Chief Information Officer will continue to
provide updates on the progress of implementing the requirements of Draft
DoD 8570.1-M.

Audit Response. The Director, Defense Information Assurance Program
comments are nonresponsive. See the audit response to management comments
on Recommendations 1. and 2. Further, in FY 2002, DoD stated that the DoD
Chief Information Officer would complete enterprisewide certification standards
for information assurance and information technology professionals by May
2003; identify and track information assurance and information technology
civilian personnel in databases by June 2003; and identify and track information
assurance and information technology military personnel in databases by June
2004, in accordance with the Federal Managers Financial Integrity Act of 1982.
These actions have not occurred. We request that both the Assistant Secretary of
Defense for Networks and Information Integration/DoD Chief Information
Officer and the Under Secretary of Defense for Personnel and Readiness provide
additional comments in response to the final report.

       4. Develop a Plan of Action and Milestones to address the significant
deficiency in specialized training. The Plan of Action and Milestones should
include Recommendations 1. and 2. as part of the planned actions needed to
correct the overall significant deficiency and should include estimated
completion dates for those planned actions.

Management Comments. Management does not concur. The Director, Defense
Information Assurance Program commented that this recommendation is no
longer applicable based on his response to Recommendations 1. and 2. The
Director, Defense Information Assurance Program does not agree that DoD has a



                                    12
significant weakness in specialized training, and stated that.findings A and B of
the Office of the Inspector General report do not identify specialized training as a
significant deficiency.

Audit Response. The Director, Defense Information Assurance Program
comments are nonresponsive. See the audit response to management comments
on Recommendations 1. and 2. Further, the DoD FY 2003 Federal Information
Security Management Act report contained a Plan of Action and Milestone, which
stated that additional training material would be provided to DoD employees;
however, it was incomplete because it did not address weaknesses and corrective
actions discussed in either the FY 2002 Federal Managers Financial Integrity Act
report or the 1999 information assurance and information technology human
resources integrated process team report. In addition, the Plan of Action and
Milestone did not provide estimated completion dates for the planned corrective
actions. We request that both the Assistant Secretary of Defense for Networks
and Information Integration/DoD Chief Information Officer and the Under
Secretary of Defense for Personnel and Readiness provide additional comments in
response to the final report.

       5. Require DoD Components to specify in their data call responses to
the Federal Information System Management Act:

              a. the process used to identify employees with significant
information technology security responsibilities,

              b. the training requirements for employees with significant
information technology security responsibilities, and

              c. the process used to track and monitor compliance with
those training requirements.

Management Comments. The Director, Defense Information Assurance
Program, does not concur with this recommendation, and stated that this level of
detail is not required in the E-Government Act and the Office of Management and
Budget Federal Information Security Management Act guidance. DoD does
report general training descriptions as part of the DoD response to the Office of
Management and Budget’s Federal Information Security Management Act
reporting guidance.

Audit Response. The Director, Defense Information Assurance Program
comments are nonresponsive. The E-Government Act of 2002 states that the
National Institute of Standards and Technology shall have the mission of
developing standards, guidelines, and minimum requirements for operating and
providing security for information systems. National Institute of Standards and
Technology 800-50 states that Chief Information Officers should establish overall
strategy for the security awareness and training program and ensure that effective
tracking and reporting processes are in place. A security awareness and training
plan should include roles and responsibilities of personnel, and courses, material,
and documentation of each aspect of the program. National Institute of Standards
and Technology 800-50 also recommends the use of an automated tracking
system to maintain information on program activity. National Institute of
Standards and Technology 800-16 emphasizes a focus on roles and

                                     13
responsibilities of an employee, as opposed to job titles, as a way of ensuring all
employees receive proper training. DoD has neither adapted the National
Institute of Standards and Technology guidance nor issued more stringent
guidance to meet the requirements of the E-Government Act and should therefore
determine the basis for DoD Component responses to the annual Federal
Information Security Management Act data calls. We request that both the
Assistant Secretary of Defense for Networks and Information Integration/DoD
Chief Information Officer and the Under Secretary of Defense for Personnel and
Readiness provide additional comments in response to the final report.

        6. Qualify the DoD annual Federal Information Security
Management Act report to the Office of Management and Budget to
acknowledge that the specialized training information provided has been
self-reported by the DoD Components and that the DoD Chief Information
Officer does not have enterprisewide standards, metrics, or tracking
mechanisms with which to verify that information.

Management Comments. The Director, Defense Information Assurance
Program does not concur with this recommendation, and stated that enterprise
standards, metrics, and tracking mechanisms have been identified within DoD
Directive 8570.1 and Draft DoD 8570.1-M.

Audit Response. The Director, Defense Information Assurance Program
comments are nonresponsive. DoD Directive 8570.1 states that the DoD Chief
Information Officer shall establish metrics to monitor and validate compliance
with Directive 8570.1 as an element of mission readiness, but the Directive does
not include what the metrics are. DoD Directive 8570.1 requires the Assistant
Secretary of Defense for Networks and Information Integration/DoD Chief
Information Officer to develop and promulgate additional guidance relating to
information assurance training, certification, and workforce management
requirements. Further, it directs that personnel and manpower databases under
Under Secretary of Defense for Personnel and Readiness authority capture and
report requirements for information assurance training and certification. As
indicated in finding A, DoD guidance since 1998 has acknowledged a need to
identify personnel performing information assurance and information technology
duties, to develop training and certification requirements for those people, and to
implement a process for tracking implementation of those requirements. An
implementing manual for DoD Directive 8570.1 has not yet been issued. Until
such a manual is issued and complied with, the DoD annual Federal Information
Security Management Act report to the Office of Management and Budget and
Congress should be appropriately qualified. We request that both the Assistant
Secretary of Defense for Networks and Information Integration/DoD Chief
Information Officer and the Under Secretary of Defense for Personnel and
Readiness provide additional comments in response to the final report.

       7. Incorporate Recommendations 1. and 2. into the implementing
manual for DoD Directive 8570.1, “Information Assurance Training,
Certification, and Workforce Management.”

Management Comments. Management does not concur. The Director, Defense
Information Assurance Program commented that the Office of the Inspector


                                     14
General Recommendation 7 is not applicable. Please see responses to
Recommendations 1. and 2.

Audit Response. The Director, Defense Information Assurance Program
comments are nonresponsive. Please refer to Audit Response to management
comments on Recommendations 1. and 2. We request that both the Assistant
Secretary of Defense for Networks and Information Integration/DoD Chief
Information Officer and the Under Secretary of Defense for Personnel and
Readiness provide additional comments in response to the final report.

        8. Provide direct assistance and oversight to the Chief Information
Officers of the Defense Commissary Agency and Defense Contract
Management Agency to improve their Component-level security programs
for training and certifying employees with significant information technology
security responsibilities until the DoD Chief Information Officer deems that
the Component programs are adequate. If insufficient resources are
available to provide such assistance and oversight, request immediate staff
augmentation from the Secretary of Defense specifically for improving the
DoD training program for DoD employees with significant security
responsibilities for information technology.

Management Comments. The Director, Defense Information Assurance
Program does not concur with this recommendation. As part of the
implementation plan for the Draft DoD 8570.1-Manual requirements, the Defense
Information Assurance Program is providing “start-up” sessions to ensure
Component Chief Information Officers, human resources, and budget managers
know and understand the requirements and are coordinating to meet them.
Additionally, the Defense Information Assurance Program will have liaisons
(Subject Matter Experts on implementing 8570.1-M) available on-call to the
Components to support their initial implementation requirements.

Audit Response. The Director, Defense Information Assurance Program
comments are nonresponsive. Please refer to audit response to management
comments on Recommendations 1. and 2. We request that both the Assistant
Secretary of Defense for Networks and Information Integration/DoD Chief
Information Officer and the Under Secretary of Defense for Personnel and
Readiness provide additional comments in response to the final report.




                                  15
            B. Security Awareness Training
            The DoD CIO did not ensure that security awareness training information
            that the DoD Components reported in response to FISMA data calls was
            accurate and supportable. Specifically, the DoD CIO did not ensure that
            the DoD Components had effective processes in place to track and
            monitor completion of security awareness training requirements.
            Although DeCA and WHS had processes in place to ensure that new
            employees receive initial security awareness training, WHS was the only
            agency of the three reviewed that had a process to ensure that their
            network users were receiving the required periodic training. This
            condition occurred because the DoD CIO had not established a specific
            reporting process to monitor and oversee DoD Components compliance
            with DoD Instruction 8500.2, “Information Assurance (IA)
            Implementation.” As a result, DoD security awareness training
            information reported in FY 2004 cannot be relied upon to accurately
            reflect DoD enterprisewide compliance with FISMA requirements, and
            network users that have not received training could introduce security
            vulnerabilities into DoD networks.


Federal Criteria
     The Computer Security Act of 1987 established the initial requirement for
     periodic training for all persons involved in management, use, or operation of
     Federal computer systems that contain sensitive information. Security awareness
     training enhances employees’ awareness of the threats to and vulnerability of
     computer systems. OMB Circular A-130, Appendix III, “Security of Federal
     Automated Information Resources,” added a requirement for initial security
     awareness training before allowing individuals access to Federal computer
     systems. FISMA reinforced those requirements by requiring Federal agencies to
     develop, document, and implement an agencywide information security program.
     The programs must include security awareness training to inform all information
     system users, including contractors, of the information security risks associated
     with their activities and their responsibilities to comply with agency policies and
     procedures designed to reduce these risks.

     OMB Memorandum 04-25, “FY 2004 Reporting Instructions for the Federal
     Information Security Management Act,” August 23, 2004, instructs Federal
     agencies to report the number of employees that they had in FY 2004 and how
     many of those employees received IT security awareness training in FY 2004, as
     described in NIST 800-50, “Building an Information Technology Security
     Awareness and Training Program,” October 2003.

     According to NIST 800-50, an effective IT security awareness and training
     program explains the proper rules of behavior for the use of agency IT systems
     and information, communicates IT security policies and procedures that need to
     be followed, reinforces good security practices, and teaches individuals to
     recognize IT security concerns and respond accordingly. NIST 800-50 lists 27
     topics that could be addressed during awareness training, such as password usage,


                                         16
     viruses, Web usage policy, social engineering, incident response, changes in
     system environment, and security for handheld devices. Agency CIOs should
     establish overall strategy for the IT security awareness and training program;
     ensure that the agency head, senior managers, and others understand the concepts
     and strategies of the security awareness and training program and are informed of
     the progress of the program’s implementation; and ensure that effective tracking
     and reporting mechanisms are in place. For more information on NIST 800-50,
     see Appendix B.


DoD Guidance
     DoD Instruction 8500.2, “Information Assurance (IA) Implementation,”
     February 6, 2003, requires all DoD employees and IT users to maintain a degree
     of understanding of IA policies and doctrine commensurate with their
     responsibilities. Each user should be capable of appropriately responding to and
     reporting suspicious activities and conditions and know how to protect the
     information that they access. To achieve this understanding, all DoD employees
     and IT users shall receive both initial and periodic IA security awareness training.
     DISA develops and provides awareness products, DoD Component Heads ensure
     that IA awareness training is provided to all military and civilian personnel,
     including contractors, and the DoD CIO provides oversight of DoD IA awareness
     activities.

     Although not in effect at the time of our reviews of DeCA, DCMA, and WHS,
     DoD issued additional guidance on security awareness training. DoD
     Directive 8570.1, “IA Training, Certification, and Workforce Management,”
     August 15, 2004, has similar requirements to DoD Instruction 8500.2, but
     strengthens the DoD awareness program by specifying that all IT users shall
     receive annual security awareness training rather than periodic training.


Initial Security Awareness Training.
     DeCA and WHS both had processes in place to ensure that new employees
     receive initial security awareness training. They both provided new users with
     access to the network for a limited time for them to be able to complete the initial
     security awareness training. If the training was not completed during that time,
     network access was revoked. DCMA required new users to take initial security
     awareness training, but did not have a process to ensure that they took the
     training.

     DeCA Initial Security Awareness Training. DeCA implemented an initial
     security awareness training program in the fall of 2003. Each new user is granted
     access to the network for 10 days. Users must complete the initial security
     awareness training and provide their certificates to their supervisors who forward
     to them to the Network Access Administrator. After they receive the certificates,
     new users will be granted permanent access to the network. If a training
     certificate is not forwarded to the Network Access Administrator within 10 days,
     the new user’s network account will automatically expire.

                                          17
    DCMA Initial Security Awareness Training. DCMA made initial security
    awareness training available to new users on a continual basis. The training was
    included on a list of mandatory training courses on the DCMA Website. Users
    must provide their training certificates to their training coordinator upon
    completion; however, there was limited oversight within DCMA to ensure that
    new users complied with that requirement.

    WHS Initial Security Awareness Training. WHS required all new employees
    to take initial security awareness training. New employees were granted 24-hour
    access to the network after receiving a security briefing from their IA Officer. If
    the new employee did not complete and pass the security awareness training
    within 24 hours, their user access was automatically revoked.


Periodic Security Awareness Training
    The effectiveness of security awareness training varied among DoD Components.
    For example, DeCA and DCMA did not know how many of their employees with
    network access had received periodic security awareness training because they
    did not track and monitor completion of the training. Additionally, DeCA and
    DCMA could not provide supporting documentation for the information they
    provided for FISMA in FY 2003. In contrast, WHS was able to verify that all
    employees had completed security awareness training by comparing personnel
    records against security awareness training records.

    DeCA. Although DeCA made security awareness training available to its
    employees by putting the training course on the intranet in January 2003, DeCA
    did not formally require periodic security awareness training until May 2004. On
    May 5, 2004, an e-mail informed all DeCA employees that security awareness
    training would be required annually and that all employees with network access
    were to take the training by May 21, 2004. DeCA uses the DISA “DoD
    Information Assurance Awareness” training CD, which is on the DeCA Website
    and is accessible to all DeCA employees with network access.
            DeCA Tracking and Monitoring Efforts. Prior to May 2004, DeCA did
    not have a Componentwide process to track and monitor personnel who
    completed security awareness training. When employees completed the training,
    they printed out a blank certificate, wrote in their name, dated and signed the
    certificate, and provided it to their supervisor. DeCA did not have a central
    location where all of the certificates were maintained or a database to document
    which employees had taken training. During the audit, DeCA compiled security
    awareness training records through a data call to its four regions and recorded that
    information in an Excel spreadsheet. The training records provide DeCA with a
    rough estimate of how many people have taken the training, but it is not the best
    way to track and monitor completion of security awareness training. For
    example, DeCA cannot identify specific people who have not taken the training or
    ensure that all DeCA employees have responded to the data call unless a
    comparison against a personnel roster or list of network users is conducted. Such
    a comparison would be time-consuming unless it is integrated with the database
    or spreadsheet used to document the security awareness training completion


                                         18
records. DeCA plans to incorporate the security awareness course into its Center
for Learning’s ToolBook, which will automatically track who completes the
training.

        DeCA Security Awareness Training Records. DeCA provided the
Excel spreadsheet that contained completion dates for the security awareness
training, as reported by the employees, for training completed from August 1,
2002, through May 31, 2004. Although DoD reported that all 17,876 DeCA
employees received security awareness training in FY 2003, DeCA did not have
accurate records on exactly how many employees completed the training during
FY 2003. DeCA made security awareness training available to employees during
2003, but it did not keep records on the completion of that training until 2004.
Based upon the records provided by DeCA as of May 31, 2004, only
5,322 employees had completed security awareness training in FY 2004. Many
DeCA employees, such as those that work in the commissaries, do not have
network access and therefore are not required to take the security awareness
training, but DeCA did not have a process to identify those employees that had
network access and whether they had received the required security awareness
training.

DCMA. DCMA required all employees, including contractors, to take security
awareness training every fiscal year. An e-mail is sent out every year to all
DCMA employees to inform them of the annual security awareness training
requirement. For example, DCMA sent out an e-mail on October 3, 2003,
requiring all employees to complete the training by November 14, 2003. DCMA
uses the Computer Security Awareness Training program, which is accessible
through the DCMA intranet home page, to accomplish security awareness
training. DCMA updates the security awareness training program around the
beginning of every fiscal year, so that employees are not taking the same training
each year.

        DCMA Tracking and Monitoring Efforts. The Computer Security
Awareness Training program includes a database that is updated every time a
DCMA employee completes the security awareness training. The database
included names of employees that had completed the training and the date that
they completed the training. However, the database could not be used to quickly
identify those who had not taken the training because it only included employees
that had completed the training, rather than all DCMA employees. DCMA
periodically checks agencywide compliance with its security awareness training
requirements by comparing the total number of records in the Computer Security
Awareness Training database against the number of DCMA employees reported
by the personnel office. However, DCMA did not take any action if the number
of records in the Computer Security Awareness Training database was less than
the total number of DCMA employees.

       DCMA Security Awareness Training Records. DCMA did not have
supporting documentation for the security awareness training information
provided in FY 2003. Officials were only able to provide records from their
Computer Security Awareness Training database for security awareness training
completed from September 10, 2003, through May 5, 2004. Although DoD
reported that all 11,127 DCMA employees received security awareness training in
FY 2003, based upon the records provided by DCMA, only 25 employees

                                    19
completed security awareness training in FY 2003. However, through
May 5, 2004, the Computer Security Awareness Training database contained
10,599 records for security awareness training completed in FY 2004. Of those
10,599 records, 9,767 were for training completed between October 3, 2003,
when they were notified to take the training, and November 14, 2003, the date by
which they were required to complete the training. The Computer Security
Awareness Training database provides DCMA with a rough estimate of how
many people have taken the training. However, without a comparison to a
personnel roster or list of network users, DCMA will not know the exact number
of employees requiring and receiving security awareness training. For example,
since the Computer Security Awareness Training database automatically creates a
record every time someone completes the online training, it would inadvertently
include employees who had taken the training, but had subsequently left the
agency and employees who had taken the training more than once.

WHS. WHS required annual security awareness training for all WHS employees.
Each of the six WHS directorates sends an e-mail every year to its employees to
inform them of the training requirement and the completion date for their
directorate. Employees complete security awareness training and testing on an
intranet Web site maintained by the WHS CIO office. After reading the training
material, employees must answer 12 of 16 multiple choice questions correctly.
WHS is replacing its security awareness training program with the Learning
Management System, which is a Web-based security awareness training program.
The Financial Management Directorate and Information Technology Management
Directorate began using the new training in the spring of 2004.

        WHS Tracking and Monitoring. Each directorate performs periodic,
compliance checks of personnel and training information to ensure that all WHS
users receive the security awareness training before or shortly after their required
training completion date. Each directorate IT manager obtains personnel records
from the administrative officer to determine the universe of employees in the
directorate and notifies the employees that they must take the training. When
employees complete the training, the training program automatically sends an
e-mail to the directorate IT manager. The IT manager populates an Excel
spreadsheet with all the names received from the administrative officer and adds
the date that each employee completed training. The IT manager is responsible
for identifying and contacting anyone who has not taken the security awareness
training.

       WHS Security Awareness Training Records. DoD reported that in
FY 2003 all 1,707 WHS employees had completed security awareness training.
WHS provided us with their security awareness training records on May 20, 2004.
WHS does not keep records on a fiscal year basis or maintain historical records of
dates when employees previously completed security awareness training.
However, WHS was able to provide records that showed that all 1,644 WHS
employees had completed security awareness training, according to the
requirements that each WHS directorate designated for its employees. WHS does
have a process in place to track whether their employees complete training, and
the IT managers contact employees when they are due to complete training.




                                     20
FISMA Reporting
    DoD reported unsupportable information to OMB and Congress in its FY 2003
    FISMA report. DoD reported that all 17,876 DeCA employees, all
    11,127 DCMA employees, and all 1,707 WHS employees had received IT
    security awareness training in FY 2003. DeCA and DCMA were unable to
    provide supporting documentation for those numbers. Further, they did not have
    a process in place to track and monitor completion of security awareness training
    that would allow them to report accurately for FY 2004. Until the DoD CIO
    requires all DoD Components to have acceptable methods for tracking,
    monitoring, and documenting completion of security awareness training
    requirements, DoD will be unable to provide accurate and meaningful information
    on its security awareness training to OMB and Congress.


Conclusion
    Recent attacks against the DoD information infrastructure have heightened
    awareness of the importance of training as a critical component of protecting DoD
    information resources against modern day cyber attacks. The DoD warfighting
    capability and the security of its information infrastructure are at great risk from
    attacks by foreign intelligence organizations, cyber terrorists, and the
    incompetence’s of some of its own users. The shared risk environment created by
    highly connected and interdependent DoD information systems makes it
    imperative that all individuals using, administering, and maintaining those
    systems understand the threats and the policies, procedures, and equipment
    designed to mitigate those threats. Network users that have not received security
    awareness training could introduce security vulnerabilities into DoD networks. If
    employees are not informed of applicable organizational policies and procedures,
    they cannot be expected to act effectively to secure computer resources.


Recommendations, Management Comments, and Audit
  Response
    B. We recommend that Assistant Secretary of Defense for Networks and
    Information Integration/DoD Chief Information Officer and the Under
    Secretary of Defense for Personnel and Readiness:

           1. Require each DoD Component to provide a plan for how it will
    track and monitor completion of security awareness training for their
    network users.

    Management Comments. Management does not concur. The Director, Defense
    Information Assurance Program commented that the recommendation is no longer
    applicable as it has been completed. Chapters 6, 7, and 8 of the Draft
    DoD 8570.1-M identify information assurance workforce identification, tracking,
    and reporting requirements.


                                        21
Audit Response. The Director, Defense Information Assurance Program
comments are nonresponsive. DoD Directive 8570.1 requires that all authorized
users of DoD information systems shall receive initial information assurance
awareness orientation as a condition of access and thereafter must complete
annual information assurance refresher awareness. Further, the Directive
specifies that the status of DoD Component information assurance certification
and training shall be monitored and reported as an element of mission readiness
and as a management review item. The Assistant Secretary of Defense for
Networks and Information Integration is charged with the responsibility to
establish metrics to monitor and validate compliance with the Directive as an
element of mission readiness, and the Under Secretary of Defense for Personnel
and Readiness is charged with establishing oversight for approval and
coordination of certification development and implementation. An implementing
manual for DoD Directive 8570.1 has not yet been issued; until such a manual is
issued and complied with, this recommendation will not be completed. We
request that both the Assistant Secretary of Defense for Networks and Information
Integration/DoD Chief Information Officer and the Under Secretary of Defense
for Personnel and Readiness provide additional comments in response to the final
report.

       2. Periodically review supporting documentation to ensure that the
Components’ plans are effectively implemented and to document completion
of those reviews.

Management Comments. The Director, Defense Information Assurance
Program does not concur with this recommendation, and stated that there is no
requirement to perform Component inspections. However, DoD-wide standards,
processes and procedures will be in place to support DoD management of these
requirements. Additionally, the Defense Information Assurance Program is
working with Components as they develop their plans to implement the
requirements of DoD 8570 and will provide implementation support.

Audit Response. The Director, Defense Information Assurance Program
comments are nonresponsive. National Institute of Standards and Technology
800-50 states that when a security awareness and training program is
implemented, processes must be put in place to monitor compliance and
effectiveness. DoD Directive 8570.1 requires that all authorized users of DoD
information systems shall receive initial information assurance awareness
orientation as a condition of access and thereafter must complete annual
information assurance refresher awareness. Further, the Directive specifies that
the status of DoD component information assurance certification and training
shall be monitored and reported as an element of mission readiness and as a
management review item. The Assistant Secretary of Defense for Networks and
Information Integration is charged with responsibility to establish metrics to
monitor and validate compliance with the Directive as an element of mission
readiness, and the Under Secretary of Defense for Personnel and Readiness is
charged with establishing oversight for approval and coordination of certification
development and implementation. An implementing manual for DoD
Directive 8570.1 has not yet been issued; until such a manual is issued and
complied with, this recommendation will not be completed. We request that both
the Assistant Secretary of Defense for Networks and Information Integration/DoD


                                    22
Chief Information Officer and the Under Secretary of Defense for Personnel and
Readiness provide additional comments in response to the final report.

       3. Develop a Plan of Action and Milestones to address the security
awareness training weakness. The Plan of Action and Milestones should
include Recommendations 1. and 2. as part of the planned actions needed to
correct the overall weakness and should include estimated completion dates
for those planned actions.

Management Comments. The Director, Defense Information Assurance
Program does not concur that DoD has a security awareness training weakness
that requires a Plan of Action and Milestones at the enterprise level. The Director
stated that the limited scope of the audit is not sufficient to support this
conclusion.

Audit Response. The Director, Defense Information Assurance Program
comments are nonresponsive. The scope of the audit included Federal laws,
Office of Management and Budget guidance, National Institute of Standards and
Technology guidance, and DoD Directives, Instructions, and Memorandums to
determine the root cause of compliance deficiencies with these criteria at three
DoD Components who reported 100 percent compliance with security training
and awareness data calls in FY 2003. See also our response to management
comments on Recommendations 1. and 2. We request that both the Assistant
Secretary of Defense for Networks and Information Integration/DoD Chief
Information Officer and the Under Secretary of Defense for Personnel and
Readiness provide additional comments in response to the final report.

        4. Qualify its annual Federal Information Security Management Act
report to the Office of Management and Budget to acknowledge that the
security awareness training information provided has been self-reported by
the DoD Components and the DoD Chief Information Officer does not have
enterprisewide standards, metrics, or tracking mechanisms with which to
verify that information.

Management Comments. The Director, Defense Information Assurance
Program does not concur with this recommendation. The Director stated that
enterprise standards, metrics, and tracking mechanisms have been identified
within DoD Directive 8570.1 and Draft DoD 8570.1-M.

Audit Response. The Director, Defense Information Assurance Program
comments are nonresponsive. DoD Directive 8570.1 requires that all authorized
users of DoD information systems shall receive initial information assurance
awareness orientation as a condition of access and thereafter must complete
annual information assurance refresher awareness. Further, the Directive
specifies that the status of DoD Component information assurance certification
and training shall be monitored and reported as an element of mission readiness
and as a management review item. The Assistant Secretary of Defense for
Networks and Information Integration is charged with the responsibility to
establish metrics to monitor and validate compliance with the Directive as an
element of mission readiness, and the Under Secretary of Defense for Personnel
and Readiness is charged with establishing oversight for approval and
coordination of certification development and implementation. An implementing

                                    23
manual for DoD Directive 8570.1 has not yet been issued. Until such a manual is
issued, and complied with, the DoD annual Federal Information Security
Management Act report to the Office of Management and Budget and Congress
should be appropriately qualified. We request that both the Assistant Secretary of
Defense for Networks and Information Integration/DoD Chief Information
Officer and the Under Secretary of Defense for Personnel and Readiness provide
additional comments in response to the final report.

        5. Provide direct assistance and oversight to the Chief Information
Officers of the Defense Commissary Agency and Defense Contract
Management Agency to improve their Component-level security programs
for security awareness training until the DoD Chief Information Officer
deems that the Component programs are adequate. If insufficient resources
are available to provide such assistance and oversight, request immediate
staff augmentation from the Secretary of Defense specifically for improving
the DoD security awareness program.

Management Comments. The Director, Defense Information Assurance
Program does not concur with this recommendation. As part of the
implementation plan for the Draft DoD 8570.1-M requirements, the Defense
Information Assurance Program is providing “start-up” sessions to ensure
Component Chief Information Officers, human resources, and budget managers
know and understand the requirements and are coordinating to meet them.
Additionally, the Defense Information Assurance Program will have liaisons
(Subject Matter Experts on implementing 8570.1-M) available on-call to the
Components to support their initial implementation requirements.

Audit Response. The Director, Defense Information Assurance Program
comments are nonresponsive. Please refer to our response to management
comments on Recommendation 1. We request that both the Assistant Secretary of
Defense for Networks and Information Integration/DoD Chief Information
Officer and the Under Secretary of Defense for Personnel and Readiness provide
additional comments in response to the final report.




                                    24
Appendix A. Scope and Methodology
   We performed this audit to determine whether all agency employees with
   computer access received IT security awareness training, and whether employees
   with significant IT security responsibilities received specialized IT training within
   our review of three DoD Components.

   We reviewed Federal laws, OMB guidance, NIST guidance, and DoD Directives,
   Instructions and Memorandums. We reviewed DeCA, DCMA, and WHS training
   guidance, based on the size of the agencies and their geographic locations. We
   reviewed the lists of all personnel requiring security awareness training and
   employees with significant IT security responsibilities requiring specialized
   training. We also obtained and reviewed the records of security awareness
   training and IT specialized training to determine whether DeCA, DCMA, and
   WHS employees. were being trained in accordance with Federal laws, OMB
   guidance, DoD guidance, and their own internal guidance.

   We visited, contacted, and conducted interviews with officials from the Office of
   the DoD CIO, DeCA, DCMA, and WHS.

   We performed this audit from April 2004 through October 2004 in accordance
   with generally accepted government auditing standards.

   We did not evaluate management controls because DoD recognized information
   assurance as a material weakness in the FY 2000 Statement of Assurance.

   Use of Computer-Processed Data. We used each Component’s Defense
   Civilian Personnel Data System roster to locate the five traditional IT-related
   occupations and compared them to the number of employees with significant IT
   security responsibilities that DeCA, DCMA, and WHS had provided. We did not
   perform a reliability assessment of the computer-processed data, although we did
   identify a coding and script error and a reversed month and date in a certain
   period, during our testing of the number of employees that had security awareness
   training by using Computer Security Awareness Training for DCMA. After the
   review detected the problem, DCMA took corrective action.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the Information Security high-risk area.




                                        25
Prior Coverage
     During the last 5 years, the Inspector General of the Department of Defense
     (IG DoD) and Naval Audit Service have issued three reports discussing computer
     security awareness training.

IG DoD
     IG DoD Report No. D-2004-067, “Implementation of the Federal Information
     Security Management Act for FY 2003 at Selected Military Treatment Facilities,”
     April 8, 2004

Naval Audit Service
     N2004-0072, “Information Security – Operational Controls at Naval Air Systems
     Command Headquarters and Naval Air Warfare Centers,” August 16, 2004

     N2004-0063, “Information Security – Operational Controls at Naval Aviation
     Depots,” July 9, 2004




                                       26
Appendix B. National Institute of Standards and
            Technology Guidance on Security
            Awareness and Training
    The Computer Security Act of 1987 tasked NIST to develop and issue guidelines
    for Federal computer security training. NIST issued Special Publication 500-172,
    “Computer Security Training Guidelines,” in November 1989. In January 1992,
    the Office of Personnel and Management released a Federal personnel regulation,
    “Employees Responsible for the Management or Use of Federal Computer
    Systems,” which required Federal agencies to provide training as set forth in
    NIST guidelines. In April 1998, the NIST 500-172 was superseded by NIST 800-
    16, “Information Technology Security Training Requirements: A Role- and
    Performance-Based Model.” In October 2003, NIST 800-50, “Building an
    Information Technology Security Awareness and Training Program,” was issued
    as a companion document to NIST 800-16. NIST 800-50 describes strategies for
    building an IT security awareness and training program, and NIST 800-16
    describes a tactical approach to role-based IT security training.

    NIST 800-50. NIST 800-50 provides guidance for building an effective IT
    security awareness and training program and supports the requirements specified
    in FISMA. Training agency IT users on security policy, procedures, and
    techniques is an important part of any IT security program. Agency heads must
    give high priority to effective security awareness and training for the workforce.
    CIO’s should establish overall strategy for the IT security awareness and training
    program and ensure that effective tracking and reporting processes are in place.
    A security awareness and training plan should discuss existing policy and the
    scope of the awareness and training program. The plan should also include the
    roles and responsibilities of agency personnel; mandatory and optional courses or
    material; and documentation, feedback, and evidence of learning for each aspect
    of the program. The security training and awareness plan must be viewed as a set
    of minimum requirements to be met, and those requirements must be supportable
    from a budget or contractual perspective. An implementation schedule must be
    established and should consider availability of resources, organizational impact,
    and state of compliance.

    NIST 800-50 outlines three possible program structures–centralized, partially
    decentralized, or fully decentralized program. A centralized program includes a
    central authority with the responsibility and budget for the entire organization’s
    IT security awareness and training program. In a partially decentralized program,
    a central authority defines security awareness and training policy and strategy,
    and implementation, including budget allocation, material development, and
    scheduling is delegated to line management officials in the organization. In a
    fully decentralized program, the central authority disseminates broad policy and
    expectations for security awareness and training requirements, but gives
    responsibility for executing the entire program to other organizational units. This
    model normally uses a series of distributed authority directives, driven by the
    central authority, and a subsystem of CIOs and IT security program managers
    subordinate to the central CIO and IT security officer.


                                        27
The central authority sets the overall policy, and the organizational units assess
and develop the security awareness and training material and determine how to
deploy it. The central authority may require periodic input from each
organizational unit on the budget, strategy, and progress report. The central
authority may also require the organizational units to report awareness and
training results. Agencies that are relatively large, have general responsibilities
assigned to headquarters, and specific responsibilities assigned to unit levels,
have functions spread over a wide geographic area, or have quasi-autonomous
organizational units with separate and distinct missions often use a fully
decentralized structure.

When a security awareness and training program is implemented, processes must
be put in place to monitor compliance and effectiveness. NIST 800-50
recommends the use of an automated tracking system to capture key information
on program activity at an agency level. The database would serve the needs of
several users. For example, CIO’s could use the database to support strategic
planning, report on overall implementation of the IT security awareness and
training program, assist in security and IT budgeting, and identify the need for
program improvements. The IT security program managers could use the
database to support security planning, provide status reports, justify requests for
funding, demonstrate compliance with agency-established goals and objectives,
identify vendors and other training sources, and respond to security-related
inquiries. Auditors could use the database to monitor compliance with security
directives and agency policy. Other users that may have a need for the database
include human resources departments, agency training departments, functional
managers, and chief financial officers.

NIST 800-16. The emphasis of NIST 800-16 is on training criteria or standards,
rather than on specific curricula or content. Training criteria should be based
upon each employee’s role within the organization and measured by on-the-job
performance. This emphasis on roles and results, rather than on fixed content,
gives this document flexibility, adaptability, and longevity. The new approach
recognizes that an individual may have more than one organizational role and will
need IT security training that satisfies the specific responsibilities of each role. In
addition, because it is not focused on job titles, this approach facilitates more
consistent interpretation of training criteria across organizations.

The NIST 800-16 is based on the premise that learning starts with awareness,
builds to training, and evolves into education. This document defines the IT
security learning needed as a person assumes different roles within an
organization, different responsibilities in relation to IT systems, and the
knowledges, skills, and abilities individuals need to perform the IT security
responsibilities specific to their roles in the organization. All employees need
awareness. Training is required for individuals whose role in the organization
indicates a need for special knowledge of IT security threats, vulnerabilities, and
safeguards. Education applies primarily to individuals who have made IT
security their profession.




                                      28
Appendix C. DoD Requirements
   June 29, 1998, Memorandum. On June 29, 1998, the DoD CIO and the Under
   Secretary of Defense for Personnel and Readiness issued, “Information Assurance
   (IA) Training and Certification.” This memorandum states that the shared risk
   environment created by highly connected and interdependent DoD information
   systems makes it imperative that all individuals using, administering, and
   maintaining shared systems understand the threats to DoD systems and the
   policies, procedures, and equipment designed to mitigate these threats. The
   memorandum also stated that many individuals using shared systems or
   performing the duties of system administrators and maintainers lacked sufficient
   training to ensure the adequate protection of DoD information resources.

   The DoD CIO tasked the Under Secretary of Defense for Personnel and
   Readiness to work with the DoD Components to identify a common set of IA
   training and certification requirements for military and civilian occupational
   specialties. In the meantime, the memorandum required DoD Component Heads
   to develop and implement certification plans and procedures for all DoD military
   and civilian employees who use DoD computer systems or perform the duties of
   system administrators and maintainers. The certification plans were to be
   submitted to the Director of Information Assurance within the Office of the DoD
   CIO within 45 days, the Components were to report on progress against those
   plans every quarter, and the plans were to be fully implemented by December
   2000.

   July 14, 2000, Memorandum. On August 27, 1999, the Office of the Secretary
   of Defense published, “Information Assurance and Information Technology:
   Training, Certification, and Personnel Management in the Department of
   Defense,” which included the findings and recommendations of an IA and IT
   human resources integrated process team composed of representatives from
   15 DoD Services and agencies. The recommendations were accepted by the
   Deputy Secretary of Defense on July 14, 2000. The report found that DoD had
   difficulty determining who its employees with significant IT security
   responsibilities were because military and civilian employees who perform IT
   duties are not always assigned to a specific military or civilian IT occupational
   specialty or series. The report also found that DoD had not identified specific
   training and certification requirements for employees with significant IT security
   responsibilities. The report made 19 recommendations related to changing the
   way in which DoD manages its IT workforce. Recommendations to the Under
   Secretary of Defense for Personnel and Readiness included requiring the DoD
   Components to identify all people who perform IT functions in DoD personnel
   databases and to establish mandatory training or certification programs, or both,
   to track the status of compliance with the memorandum’s requirements. The
   recommendation to adopt NIST 800-16 was directed to the DoD CIO.

   On July 14, 2000, the Deputy Secretary of Defense issued a memorandum,
   “Implementation of the Recommendations of the Information Assurance and
   Information Technology Integrated Process Team on Training, Certification and
   Personnel Management in the Department of Defense,” which assigned actions to
   implement each of the 19 recommendations in the report. The memorandum


                                       29
required the assigned organizations to develop and submit plans to implement
their respective recommendation(s) to the Deputy Secretary’s office within
90 days. The memorandum also required the DoD CIO to provide a consolidated
status report on the execution of those plans every 60 days.

DoD Directive 8500.1. DoD Directive 8500.1, “Information Assurance (IA),”
October 24, 2002, and certified current as of November 21, 2003, states that all
personnel [with] authorized access to DoD information systems shall be
adequately trained in accordance with DoD and Component policies and
requirements and certified as required to perform the tasks associated with their
IA responsibilities.

DoD Instruction 8500.2. DoD Instruction 8500.2, “Information Assurance (IA)
Implementation,” February 6, 2003, states that the DoD CIO shall provide
oversight of DoD IA education, training, and awareness activities. Specifically,
the DoD CIO is responsible for establishing a DoD core curriculum for IA
training and awareness and establishing IA skills certification standards in
coordination with the Office of the Under Secretary of Defense for Personnel and
Readiness. The DISA Director is required to develop and provide IA training
and awareness products. DoD Component Heads are required to ensure that IA
awareness, training, education, and professionalization are provided to all military
and civilian personnel, including contractors, commensurate with their respective
responsibilities for developing, using, operating, administering, maintaining, and
retiring DoD information systems in accordance with the DoD memorandums
issued on IA training and certification on June 29, 1998, and July 14, 2000.

CJCS Instruction 6510.01C. Chairman of the Joint Chiefs of Staff
Instruction 6510.01C, “Information Assurance and Computer Network Defense,”
May 1, 2001, states that all DoD Components will establish a training and
certification program for Designated Approving Authority, Information System
Security Officer, and system administrator positions using National Security
Telecommunications and Information Systems Security national training
standards. The Components are required to establish and maintain the
certification status of system administrators. Certification information will be
forwarded to DISA and documented in the DoD Central Database. The
Components will also develop or use DISA-developed standardized tests for
certification of skill level one, two, and three system administrators.

DoD Directive 8570.1. DoD Directive 8570.1, “Information Assurance Training,
Certification, and Workforce Management,” August 15, 2004, states that the
DoD CIO shall establish metrics to monitor and validate compliance with this
Directive; DISA shall provide training and awareness materials for the DoD
Components to integrate into their IA training and awareness programs; DoD
Components shall “establish, resource, and implement” an IA training and
certification program for all DoD Component personnel, and identify, document,
and track IA personnel certification status in Component personnel databases; and
the Under Secretary of Defense for Personnel and Readiness shall require Heads
of DoD Components to determine the requirements for privileged users and IA
managers, ensure that personnel databases capture and report IA training and
certification requirements, and establish oversight for approving and coordinating
development and implementation of certification programs.


                                    30
DoD Directive 8570.1 duplicated several requirements that already existed in
DoD guidance. DoD Instruction 8500.2, February 2003, already required the
DoD CIO to provide overall oversight of the IA education, training, and
awareness activities in DoD and required DISA to develop and promulgate IA
training and awareness products. The June 1998 and July 2000 memorandums, as
well as CJCSI 6510.01C, all required the DoD Components to develop IA
training and certification requirements. The June 1998 memorandum already
required the DoD Components to report to the DoD CIO on implementation of
those requirements every quarter, the July 2000 memorandum required the DoD
Components to identify their employees with significant IT security
responsibilities and track compliance with training requirements in personnel
databases, and CJCSI 6510.01C already required Components to forward
certification information to DISA for inclusion in the DoD Central Database.




                                 31
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Networks and Information Integration/DoD Chief
   Information Officer
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Information Systems Agency
Director, Defense Commissary Agency
Director, Defense Contract Management Agency
Director, Washington Headquarters Service

Non-Defense Federal Organization
Office of Management and Budget




                                          32
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        33
Defense Information Assurance Program
Comments




       .
   NETWORKS AND INFORMATION
          INTEGRATION

             MEMORANDUM

             SUBJECT:
                                       ASSISTANT SECRETARY OF DEFENSE
                                               6000 DEFENSE PENTAGON
                                              WASHINGTON.DC 20301-6000




                                   FOR INSPECTOR
                                                       a 3 NOV ZOO4



                                                       GENERAL,      DEPARTMENT        OF DEFENSE

                              Report on DoD FY 2004 Implementation of the Federal Infonnation
                              Security Management Act for Information Technology Training and
                              Awareness (Project No. D2004AL-0136)

                     The Department of Defense (DaD) Deputy ChiefInfonnation         Officer (DCIO)
             does not concur with findings A and B of the Report. The DCIO is concerned that the
             Report findings are based on an extremely limited sample of three relatively small DoD
             support Agencies (Defense Commissary Agency (DeCA), Defense Contract Management
             Agency (DCMA), Washington Headquarters Service (WHS». The scope of the audit,
             which did not include any Services or Combatant Commands, represented less than 1%
             of total DoD employees and less than 0.2% of employees with significant IT security
             responsibilities. In contrast to the Report's conclusions,the results of the training audit
             revealed that WHS has a strong IT security training program.

                    The DCIO has completed action on two of the IG Report Recommendations         and
             two Recommendations    are not applicable. The DCIO does not concur with the remaining
             nine Recommendations    of the subject Report. As requested, the following responses
             address the Report's Recommendations:

             Part A: SDecialized Trainin!! for EmDlovees with Sil!Dificant Security
                     ResDonsibilities for Information Technolol!V

             OIG Recommendation         I: Provide DoD Components with a standardized definition for
             employees with significant security responsibilities for infonnation technology that
             requires specialized training to use in meeting FISMA requirements.

             DoD Mana!!ement ResDonse: DIG Recommendation               I is no longer applicable as it has
             been completed. Employees with significant IT security responsibilities are defined in
             Appendix API of the Draft Manual DoD 8570.l-M and in the Department of Defense
             Federal Information Security Management Act (FISMA) Reporting Guidance for Fiscal
             Year 2004,15 March 2004. In accordance with the DoD FISMA guidance, page 2, DoD
             defines significant security responsibilities as those performed by the Designated
             Approval Authority (DAA), System AdministratorlNetwork           Administrator (SAlNA),
             Information System Security Manager (ISSM), Infonnation Assurance Manager (lAM),
             Information System Security Officer (ISSO), Infonnation Assurance Officer (1A0),




                                                            0




                                                           35
Computer Emergency Response Team (CERT) members, and anyone with privileged
access to a system or network.

OIG Recommendation       2: In coordination with the Under Secretary of Defense for
Personnel and Readiness (USD(P&R», establish a specific reporting process for
reviewing and approving:

           a. methodologies used by DoD Components to identify employees with
significant information technology security responsibilities.
           b. training and certification requirements developed by the DoD Components
for their employees with significant information technology security responsibilities, and
           c. tracking processes that DoD Components use to determine how many of
their employees with significant security responsibilities for IT have received specialized
training.

DoD Manu:emeDt        ResDonse: The DCIO does not concur with this recommendation.
United States Code Title 10 assigns specific responsibilities to the Services for equipping,
training, and providing the forces. Under this responsibility, the Services arc responsible
for the review and oversight of their training programs. The Office of the Secretary of
Defense (OS D) provides the framework for the Components to address recommendations
a. b and c.
The Assistant Secretary of Defense for Networks and Information Integration (ASD(N1I))
has been working directly with USD(P&R) to develop methodologies for DoD
Components to identify IA positions and manage and track employee training and
certification requirements.

OIG Recommendation         3: Continue to report necessary corrective action including the
development of standards for employees with significant information technology security
responsibilities and the process for identifying and tracking personnel who perform that
function, to the Secretary of Defense for inclusion in the DoD Federal Managers
Financial Integrity Act (FMFIA) report.

DoD Mana2eme.t      ResDOnse: The DeIO does not concur with this recommendation
based on DoD's Management Responses to OIG Recommendations          1 and 2. The DoD
CIO will continue to provide updates on the progress of implementing the requirements
of Draft DoD 8S70.1-M.

OIG Recommendation          4: Develop a Plan of Action and Milestones to address the
significant deficiency in specialized training. The POA&M should include
Recommendations       1. and 2. as part of the planned actions needed to correct the overall
significant deficiency and should include estimated completion dates for those planned
actions.


                                               2




                                              36
DoD Manal!ement     Response: This recommendation       is no longer applicable based on
DoD's Management Responses to OIG Recommendations             1,2. The DCIO does not
agree that DoD has a significant weakness in specialized training. Findings A and B of
the OIG report do not identify specialized training as a significant deficiency.

GIG Recommendation      5: Require DoD Components      to specify in their data call
responses to the FISMA:

           a. the process used to identify employees with significant information
technology    security responsibilities,
           b. the training requirement for employees with significant information
technology security responsibilities, and
           c. the process used to track and monitor compliance with those training
requirements.

DoD Mana2ement         Response: The DCIO does not concur with this recommendation as
this level of detail is not required in the E-Government Act and the FISMA guidance
issued by the Office of Management and Budget (OMB). DoD does report general
training descriptions as part of the Department's response to OMB's FISMA reporting
guidance.

GIG Recommendation          6: Qualify its annual FISMA report to the OMB to acknowledge
that the specialized training information provided has been self-reported by the
Components and the DoD CIO does not have enterprise wide standards, metrics, or
tracking mechanisms with which to verify that information.

DoD Manal!ement      Response: The DCIO does not concur with this recommendation.
Enterprise standards, metrics and tracking mechanisms have been identified within DaD
Directive (DoDD) 8570.1, Information Assurance Training, Certification and Workforce
Management and Draft DoD 8570.l-M.

GIG Recommendation      7: Incorporate Recommendations  I and 2 into the implementing
manual for DoD Directive 8570.1, "Information Assurance Training, Certification, and
Workforce Management".

DoD Mana2ement     Response:    OIG Recommendation      7 is not applicable.   Please see
responses to Recommendations    I and 2.

GIG Recommendation        8: Provide direct assistance and oversight to the CIOs of the
Defense Commissary Agency and Defense Contract Management Agency to improve
their Component-level   security programs for training and certifying employees with
significant information technology security responsibilities until the DoD CIO deems that
the Component programs are adequate. If insufficient resources are available to provide



                                            3




                                          37
such assistance and oversight, request immediate staff augmentation form the Secretary
of Defense specifically for improving the DoD training program for DoD employees with
significant security responsibilities for information technology.

DoD Mana2ement        ResDonse: The DCIO does not concur with this recommendation.
As part of the implementation plan for the Draft DoD 8570.I-M requirements, the DIAP
is providing "start-up" sessions to ensure Component CIOs, human resources, and budget
managers know and understand the requirements and are coordinating to meet them.
Additionally, the DIAP will have liaisons (Subject Matter Experts on implementing
8570.I-M) available on-call to the Components to support their initial implementation
requirements.

Part B: "Securitv   Awareness   Traininl!"

OIG Recommendation       1: Require each DoD Component to provide a plan for how it
will track and monitor completion of security awareness training for their network users.

DoD Mana2ement         ResDonse: DIG Recommendation   I is no longer applicable as it has
been completed. Chapters 6, 7, and 8 of the Draft DoD 8570.I-M identify 1A workforce
identification, tracking, and reporting requirements.

DIG Recommendation     2: Periodically review supporting documentation to ensure that
the Component's plans are effectively implemented and to document completion of those
reviews.

DoD Mana2ement        ResDonse: The DCIO does not concur with this recommendation as
there is no requirement to perform Component inspections. However, DoD-wide
standards, processes and procedures will be in place to support DoD management of
these requirements.   Additionally, the DIAP is working with Components as they develop
their plans to implement the requirements of DoD 8570 and will provide implementation
support.

DIG Recommendation         3: Develop a Plan of Action and Milestones to address the
security awareness training weakness. The POA&M should include Recommendations              I.
and 2. as part of the planned actions needed to correct the overall weakness and should
included estimated completion dates for those planned actions.

DoD Mana2ement       ReSDonse: The DCIO does not concur that DoD has a security
awareness training weakness that requires a POA&M at the enterprise level. The limited
scope of the audit is not sufficient to support this conclusion.

DIG Recommendation         4: Qualify its annual FISMA report to the OMB to acknowledge
that the security awareness training information provided has been self-reported by the



                                             4




                                             38
Components and the DoD CIO docs not bave enterprise wide standards,       metrics, or
tracking mcchanisl1ll with which to verify that infol111ation.

DoD M8Dall:emeDtRemoDse:         The OCIO does not concur with dUs recommendation.
Enterprise standards, metric. 8IId tracking mc:cbanisms bave been identified within DoD
Directive (DoDD) 8570.1, I11formaJion Assurance Training. Cel'tificatton and Workforce
Management and Draft DoD 8570.1-M.

OIG ReeommeadatioD        5: Provide direct wistance and ovcnight to the CIOs of the
Defense Commissary AgenCy and Defense: Contract Management Agency to improve
their Component-level   security programs for security awarcnCIIS training until the DoD
CIO deems that the Component programs arc: adequate:. If insufficient fC8OlUCC11    arc:
available to provide such assistance and oversight, requcst immediate: staff augmentation
fonn the Secretary of Defense specifically for improving the DoD training progmm for
DoD employees with significant security responsibilitics for information technology.

DoD MaD8I!:emeat Resoonse: The OCIO does not concur with this recommendation.
& part of the implementation plan for the Draft DoD 8570.1-M requirements, the DIAP
is providing "start-up" sessions to ensure Component CIOs, lwman resources, and budget
managcn know and understand the requirements and arc coordinating to meet them.
Additionally, the DIAP will have liaisons (Subject Matter Experts on implementing
8570. I -M) available on-call to the Components to support their initial implementation
requirements.

My point of contact for this action is George Bieber, 703-602-9980,
george.bieber@osd.mi1.




                                 ~~   Director, DIAP




                                             5




                                           39
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition and Technology Management prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.
Sarah Davis
James Mitchell
Kevin A. Palmer
Liyang Riggins
Kathryn Truex
Zachary Williams
